APPENDIX 3

App. No. _____
LC v. MG
On Application for Extension of Time
to File a Petition for Writ of Certiorari
to the Supreme Court of Hawaii

Electronically Filed
Supreme Court
SCAP-16-0000837
SCAP-16-0000837
02-NOV-2018
03:37 PM
IN THE SUPREME COURT OF THE STATE OF HAWAIʻI
LC,
Petitioner-Appellant,
vs.
MG and CHILD SUPPORT ENFORCEMENT AGENCY, STATE OF HAWAIʻI,
Respondents-Appellees.
APPEAL FROM THE FAMILY COURT OF THE FIRST CIRCUIT
(CAAP-16-0000837; FC-P NO. 16-1-6009)
ORDER DENYING MOTION FOR RECONSIDERATION AND REARGUMENT
(By: McKenna, Pollack, and Wilson, JJ.,
with Nakayama, J., dissenting separately,
with whom Recktenwald, C.J., joins)

Upon consideration of Petitioner/Appellant LC’s Motion
for Reconsideration and Reargument filed October 25, 2018 (the
“motion”), the memorandum and declaration submitted in support
thereof, and the records and files herein,
IT IS HEREBY ORDERED that the motion is denied.
Contrary to the arguments raised in the motion, (1) although
the issue of whether, under Hawaiʻi law, a spouse’s lack of
consent to artificial insemination or other methods of
conception could be a basis for rebutting the marital
presumption of parentage was not discussed in the briefs, it was

a major focal point of the oral argument in this case, and no
party requested an opportunity to provide supplemental briefing;
(2) the Opinion of McKenna, J., as to Part III(B) does not
create an “irrebuttable” or “conclusive” presumption of
parentage, see n.8 of the Opinion of McKenna, J., as to Part
III(B), and (3) the cases and situations cited in the motion are
fully distinguishable.
DATED: Honolulu, Hawaiʻi, November 2, 2018.
/s/ Sabrina S. McKenna
/s/ Richard W. Pollack
/s/ Michael D. Wilson

2

Electronically Filed
Supreme Court
SCAP-16-0000837
02-NOV-2018
03:42 PM
SCAP-16-0000837
IN THE SUPREME COURT OF THE STATE OF HAWAI#I
LC,
Petitioner-Appellant,
vs.
MG and CHILD SUPPORT ENFORCEMENT AGENCY, STATE OF HAWAI#I,
Respondents-Appellees.
APPEAL FROM THE FAMILY COURT OF THE FIRST CIRCUIT
(CAAP-16-0000837; FC-P NO. 16-1-6009)
CONCURRENCE AND DISSENT
(By: Nakayama, J., in which Recktenwald, C.J., joins)
Because neither party in this case briefed whether the
marital presumption of parentage could be rebutted by
demonstrating lack of consent to the artificial insemination
procedure that led to the birth of the child, I believe the
parties deserve an opportunity to do so.
Accordingly, I would grant in part LC’s Motion for
Reconsideration and Reargument and allow the parties to brief the
specific issue addressed sua sponte by a Majority of the Court in
Opinion of McKenna, J., as to Part III(B).

I would deny the

Motion in all other respects.
DATED: Honolulu, Hawai#i, November 2, 2018.
/s/ Mark E. Recktenwald
/s/ Paula A. Nakayama

